           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




    IMPACT OF STATUTORY BENEFIT
         CONTINUATION ON
   SUPPLEMENTAL SECURITY INCOME
             PAYMENTS
  MADE DURING THE APPEALS PROCESS

      May 2006   A-07-05-15095




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   May 10, 2006                                                              Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Impact of Statutory Benefit Continuation on Supplemental Security Income Payments
        Made During the Appeals Process (A-07-05-15095)


        OBJECTIVE
        Our objective was to evaluate the financial impact on the general fund when recipients
        continue to receive Supplemental Security Income (SSI) payments while appealing a
        medical cessation decision.

        BACKGROUND
        In 1972, Title XVI of the Social Security Act established the SSI program. 1 SSI is a
        nationwide Federal cash assistance program administered by the Social Security
        Administration (SSA) that guarantees a minimum level of income to financially needy
        individuals who are aged, blind or disabled. 2 SSI benefits are financed from the general
        fund of the United States Treasury. 3

        Once SSA establishes an individual is eligible for disability benefits under the SSI
        program, SSA turns its efforts toward ensuring only those who remain disabled continue
        to receive benefits. Continuing disability reviews (CDR) are performed on SSI
        recipients to assess whether individuals remain medically eligible for SSI payments. 4 A
        decision to discontinue benefits is made when a CDR reveals the recipient no longer
        meets the medical requirements for disability benefits; these are referred to as medical
        1
            The Social Security Act § 1601, et seq.; 42 U.S.C. § 1381 et seq. See also 20 C.F.R. § 416.101 et seq.
        2
            Id.
        3
            Id.
        4
         Generally, the frequency of medical CDRs is dependent upon SSA’s assessment of the likelihood of
        medical improvement. SSA is also required to perform CDRs no later than 12 months after birth for
        children where low birth weight is a contributing factor to the disability determination and reassess a
        disabled child’s eligibility when they reach 18 years of age.
Page 2 - The Commissioner

cessation decisions. Medical cessation decisions are made by disability examiners in
the Office of Central Operations and State Disability Determination Services (DDS), as
well as disability specialists in the program service centers. See Appendix B for
additional background information on CDRs.

Once a decision has been made that an individual is no longer eligible for disability
benefits, SSA informs the recipient of its decision. Provided the individual continues to
meet the non-disability requirements for SSI, payments continue for 2 months after
cessation. The recipient may appeal the decision within 60 days of the date he or she
receives notice that SSA has determined that the individual’s disability has ceased, or
any time thereafter if good cause is shown for late filing.

The current appeals process has three administrative levels of review. First, the
recipient can request that the DDS reconsider the cessation decision. 5 Second, if the
recipient is dissatisfied with the DDS decision at the reconsideration level, the recipient
may request a hearing before an Administrative Law Judge (ALJ) in the Office of
Disability Adjudication and Review (ODAR). 6,7 Third, the recipient may appeal the
ALJ’s decision to the Appeals Council (AC). The AC may deny, dismiss, or grant the
request for review. If the AC grants the request for review, the AC either issues a
decision or remands the case back to an ALJ. 8

Public Law 98-460 § 7 provides the recipient the option for benefit continuation through
the reconsideration and ALJ levels of appeal in medical cessation decisions. 9 Benefit
payments made during the appeals process are considered overpayments if the
cessation decision is upheld. See Appendix C for the Scope and Methodology of our
review.




5
 Reconsideration hearings are held before a disability hearing officer who reviews the evidence
considered in making the initial decision and any other evidence received. Based on this evidence, a
decision is made.
6
    ODAR replaced the Office of Hearings and Appeals on April 3, 2006.
7
  The ALJ considers the evidence that is in the file and any new evidence, provides an opportunity for a
hearing, applies the SSA disability standards, and issues a new decision, which affirms or reverses the
initial decision.
8
    SSA, POMS, SI 04005.010.
9
  Payments are ceased 2 months after the DDS makes a disability cessation decision or immediately
following a cessation decision at any level of appeal, but they can be reinstated when a request for
appeal to the reconsideration or ALJ level is filed. Furthermore, payments are not continued if the
recipient is dissatisfied with the decision issued by an ALJ and the case goes to the AC. However, if the
AC remands the case back to an ALJ, benefits can be reinstated.
Page 3 - The Commissioner

RESULTS OF REVIEW
We estimate that SSA paid approximately $199.5 million in SSI payments to recipients
who received an appeal decision from an ALJ between October 1, 2002 and
September 30, 2004. Of this amount, we project that about $146.1 million became
overpayments when an ALJ affirmed the decision that the recipient was no longer
eligible to receive SSI benefits. These large overpayments were incurred because
SSA’s process for making decisions on medical cessation appeals is not as efficient as
it could be.

PUBLIC LAW 98-460

Twenty-seven percent of the recipients in our population whose benefits were continued
as a result of Public Law 98-460 § 7 received a continuance by an ALJ (see Chart 1 and
Appendix D, Table 1). 10 For these recipients, the intent of the law—to help prevent
financial hardship to recipients who
                                                            Chart 1
appeal a medical cessation decision
                                                          Population
—was achieved. However, for the
remaining 73 percent of the
recipients who received a cessation                                      Continuance
decision on their appeal, we project                                        27%
the application of the law resulted in
the recipients being overpaid                Cessation
$146.1 million (see Chart 1). 11                 73%

PUBLIC LAW 97-455

Public Law 97-455 was enacted in 1983 to protect Disability Insurance beneficiaries
from being financially disadvantaged while problems in the disability decision and
appeals process were addressed—specifically, problems in the lack of uniformity of
DDS and ALJ decisions. At that time, approximately 65 percent of DDS medical
cessation decisions were reversed by an ALJ, which placed an undue financial burden
on the majority of claimants whose benefits were terminated as a result of a CDR. This
concern remained in 1984 when the law was extended by Public Law 98-460 to
encompass SSI recipients. During the period of our review, the ALJ reversal rate for
SSI medical cessation appeals was 27 percent. Therefore, it appears SSA’s




10
  A continuance means that it was determined the individual remains medically eligible to receive SSI
payments.
11
   A cessation means that the ALJ confirmed the DDS’ decision that the individual is no longer medically
eligible for SSI payments.
Page 4 - The Commissioner

enhancements to the disability determination process, such as process unification, 12
have improved the uniformity of DDS and ALJ decisions.

OVERPAYMENTS RESULTING FROM CESSATION DECISIONS

Of the projected $146.1 million in overpayments identified for our cessation population,
we project that only $5.2 million (3.5 percent) was collected, and approximately
$49.7 million (34 percent) is in the process of being collected through installment
payments (see Chart 2). 13
Furthermore, we project that                               Chart 2
SSA has not yet determined                        SSA's Collection Activity
what action to take on
approximately $26.8 million                                   18.3%
(18.3 percent) of the
                                            34.0%                   16.7%
overpayments. We project that
the remaining $64.5 million
(44.1 percent) in overpayments
were waived, deemed                                                      Collected
uncollectible by SSA, or                         3.5%                    Collect by Installment
                                                      6.6%    20.8%
                                                                         Undetermined
collection of the overpayment                                            Collection Suspended
was suspended.                                                           Waived
                                                                                         Uncollectible

Waived

We project that SSA waived approximately $30.4 million (20.8 percent) of the
overpayments identified in our population (see Chart 2 and Appendix D, Table 2).
When overpayments are waived, the recipient is relieved from ever having to repay the
funds to SSA. Accordingly, the funds will never be returned to the general fund. SSA
grants SSI overpayment waivers when the recipient is not at fault for the overpayment
and recovery would:

          •   be against equity and good conscience;
          •   impede effective and efficient administration because of the small amount
              involved; or
          •   defeat the purpose of SSI. 14


12
  The goal of process unification is to achieve correct, similar results in similar disability cases at all
stages of the administrative review process.
13
  For the purposes of this report, we considered collection decisions of cross-program recovery,
collection by installment payments, and SSI check adjustment to be collections by installment payments.
Until the $49.7 million is actually collected, there remains the possibility that these monies will never be
collected.
14
     SSA, POMS, SI 02260.001 (A)(1) and (2).
Page 5 - The Commissioner

Collection Suspended

We project that collection was suspended for approximately $24.5 million (16.7 percent)
of the overpayments identified in our population (see Chart 2 and Appendix D, Table 2).
Debt in which collection is suspended is eligible for future benefit offset should the
individual return to SSA’s benefit rolls. 15

Uncollectible

We project that approximately $9.6 million (6.6 percent) of the overpayments identified
in our population were deemed uncollectible (see Chart 2 and Appendix D, Table 2).
When an overpayment is deemed uncollectible, the recipient is relieved from ever
having to repay the funds to SSA. Accordingly, the funds will never be returned to the
general fund. 16

LENGTH OF APPEAL

SSA’s process for making decisions on medical cessation appeals could be more
efficient to help reduce the amount of overpayments recipients incur during the appeals
process. Specifically, SSA does not require medical cessation appeals to be given
processing priority at the reconsideration level, even though they involve benefit outlays.
Furthermore, although ALJs have instructions for medical cessation appeals to be given
priority processing, the results of our review show that these cases need to be
expedited more than the instructions currently require. Since reconsideration and ALJ
appeals are not being processed timely and they involve benefit outlays, large
overpayments are incurred. Given that medical cessation appeals often result in large
overpayments, they should not be processed in the same manner as those cases that
are not receiving payments. Therefore, appeals that involve benefit payments should
be processed separately from those that do not involve payments to avoid or minimize
overpayments.

Of the projected $146.1 million in overpayments incurred by individuals that were
determined to be no longer eligible for SSI payments, we project:

     •   $43.9 million occurred at the reconsideration level of appeal;
     •   $88.3 million occurred at the ALJ level of appeal; and
     •   $13.9 million occurred between levels of appeal.



15
 SSA does not maintain statistics that isolate the dollar value of collections attributable to SSI debt in
which collection was suspended.
16
  SSA has classified information regarding debt which has been deemed uncollectible or collection has
been suspended as sensitive, not to be shared with the public. Therefore, we are not reporting the
instances in which these classifications would be applied to an overpayment or the supporting citations.
Page 6 - The Commissioner

Reconsideration

We project that SSA paid approximately $43.9 million in SSI payments during the
reconsideration level of appeal to recipients in our cessation population. 17 The median
processing time for the reconsiderations was 195 days. A reconsideration appeals
process with a median processing time of 195 days is not financially efficient because it
results in larger than necessary overpayments to SSI recipients. To minimize
overpayments, SSA needs a
process that results in timely                                   Chart 3
decisions on medical cessation                        Savings at Reconsideration
reconsiderations. If SSA would                   $44




                                                     Dollars (in millions)
have completed the                               $42
reconsiderations in our population               $40
within 30 to 60 days, we project that            $38      $42.1
                                                 $36
overpayments of between                                                   $37.5
                                                 $34
$37.5 and $42.1 million could have
                                                         30 days         60 days
been avoided (see Chart 3 and
Appendix D, Table 4). 18

Under the Commissioner’s New Approach to improve the Social Security disability
claims process, the reconsideration level of appeal will eventually be eliminated. It is
our understanding that the reconsideration stage will be replaced by a Federal reviewing
official who would review initial State agency denials if a claimant appeals. However,
the new process, as it was presented in the Notice of Proposed Rule Making, is not
clear as to what impact it will have on medical cessation appeals. 19




17
  Since our sample was taken from those recipients who received an ALJ decision between
October 1, 2002 and September 30, 2004, we did not have a complete population of reconsideration
decisions. Therefore, the projected amount of overpayments that occurred during the reconsideration
process is conservative.
18
   The evidence needed for a reconsideration decision is obtained during the CDR process with additional
case development undertaken only when there is a reasonable basis to do so. If SSA’s business process
allows these cases to be processed immediately upon receipt, it is reasonable to expect a
reconsideration decision on medical cessations within 30 to 60 days.
19
  Administrative Review Process for Adjudicating Initial Disability Claims, 70 Federal Register, pages
43589-43624 (2005).
Page 7 - The Commissioner

Administrative Law Judge Appeals

We project that SSA paid approximately $88.3 million in SSI payments to recipients in
our population during the ALJ level of appeal. While ALJs are instructed to assign
disability cessation cases immediately to avoid or minimize overpayments, 20 the results
of our review show that the instructions are not effective 21 because large overpayments
are being incurred. 22

The median processing time for ALJ appeals in our sample was 366 days. A process,
with such a lengthy median
processing time, is not financially                          Chart 4
efficient for claims that are                             Savings at ALJ
receiving benefit payments. SSA           $80
                                          $70




                                                    Dollars (in millions)
needs to develop a process to             $60
make ALJ decisions on medical             $50
cessation appeals more timely.            $40
                                                   $75.0       $68.3       $61.7
                                          $30
If SSA would have completed the
                                          $20
ALJ appeal on cases in our                $10
population within 60 to 120 days,           $0
we project that overpayments of                   60 days     90 days    120 days
between $61.7 and $75 million
could have been avoided
(see Chart 4 and Appendix D, Table 5). 23




20
     HALLEX I-2-1-55.
21
  The average processing time for cases in our sample was 393 days and the average processing time
for cases involving ALJ appeals was 420 days in Fiscal Year 2004.
22
  We recognize that recipients can increase the processing time for ALJ decisions by delaying the
hearing, which will ultimately result in a larger overpayment. However, we did not consider this
characteristic during our audit to determine how frequently this occurs, as it was outside the scope of our
audit.
23
  Because the claimant is awaiting a hearing before an ALJ, and the length of time that has elapsed
since the acquisition of evidence obtained during the CDR, it may not be reasonable to expect an ALJ
appeal decision in less than 60 days. However, if SSA’s business process allowed for medical cessation
appeals to be processed immediately upon receipt at the hearing office, it is reasonable to expect the
decision within 60 to 120 days.
Page 8 - The Commissioner

Payments Stopped Untimely

We project that SSA paid approximately $13.9 million to SSI recipients in our cessation
population between levels of appeal (see Appendix D, Table 6). This entire amount was
avoidable because benefits were not terminated timely when a CDR, reconsideration, 24
or ALJ decision was made to discontinue benefits and the recipient had not yet
appealed to the next level. 25 After a recipient has been notified of SSA’s initial or
reconsideration decision, and a timely request for appeal has not been made, payments
should be ceased. 26 However, payments can be reinstated when a request for appeal
to the reconsideration or ALJ level is filed. 27 Payments may not be timely stopped
following a medical cessation decision, or an upheld appeal decision, if the proper
coding is not entered in the computer system.

CONCLUSION AND RECOMMENDATIONS
We found that 73 percent of individuals in our population who appealed a CDR decision,
and continued to receive payments throughout the appeals process, were overpaid.
The overpayments were increased because SSA’s process for deciding medical
cessation appeals is financially inefficient. Medical cessation appeals should not be
processed in the same manner as cases not receiving payments. Therefore, appeals
that involve benefit payments should be processed separately from those that do not
involve payments to avoid or minimize overpayments.

The President’s Management Agenda introduced the initiative of improved financial
performance throughout Government agencies. By making SSA’s process for medical
cessation determinations more efficient it would be better aligned with the President’s
vision. If SSA would develop a process for making decisions on medical cessation
appeals in a timely manner, financial performance of the SSI program could be greatly
increased. For example, if SSA decreased the processing time on the reconsideration
and ALJ medical cessation appeals to 60 and 90 days, respectively, we project
overpayments of $105.8 million could have been avoided for Fiscal Years (FY)
2003 and 2004. Based on the average of these 2 years, we estimate SSA could have

24
  Some cases in our sample went directly to the ALJ level of appeal; therefore, they did not receive a
decision at the reconsideration level of appeal.
25
  We only included the overpayments incurred after the ALJ appeal decision in our analysis if the
claimant filed an appeal to the AC. If there was no further appeal filed after the ALJ decision, our
overpayment analysis stopped as of the ALJ decision date.
26
   Provided the individual continues to meet the non-disability requirements for SSI, payments continue
for 2 months after a DDS medical cessation. Claimants are given 10 days (plus 5 days mailing time) to
request benefit continuation following the notice of a reconsideration decision that his or her disability has
ceased, never existed, or is no longer disabling. However, payments should be ceased immediately
following an ALJ cessation decision.
27
     SSA, POMS, DI 12027.055 (B) and 20 C.F.R. § 416.996(a).
Page 9 - The Commissioner

avoided an additional $52.9 million in overpayments in FY 2005. Furthermore, we
project SSA could have avoided overpayments of approximately $13.9 million if
payments were timely stopped between levels of appeal.

The President’s Management Agenda also emphasizes the Government’s need to
reform its operations in how it conducts business and how it defines business. SSA
owes it to the American people to ensure that the resources entrusted to the Federal
Government are well managed and wisely used. It is not only beneficial, but necessary
for SSA to increase performance and citizen satisfaction by expediting cases that
receive payments during the appeals process. To operate more efficiently, SSA needs
to develop a new business process for cases in which benefits are being continued
throughout the appeals process. Therefore, we recommend that SSA:

1. Enhance the business process to allow more timely decisions on medical cessation
   appeals.

2. Remind SSA components of the proper procedures for terminating SSI benefits
   following medical cessation decisions.

AGENCY COMMENTS
SSA agreed with all of our recommendations. The full text of SSA’s comments is
included in Appendix E.



                                              S
                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background on Continuing Disability Reviews

APPENDIX C – Scope and Methodology

APPENDIX D – Population and Sample Results

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
AC       Appeals Council
ALJ      Administrative Law Judge
CDR      Continuing Disability Review
C.F.R.   Code of Federal Regulations
DDS      Disability Determination Services
FY       Fiscal Year
HALLEX   Hearings, Appeals, and Litigation Law Manual
ODAR     Office of Disability Adjudication and Review
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                                   Appendix B

Background on Continuing Disability Reviews
The Social Security Administration (SSA) is required to conduct periodic continuing
disability reviews (CDR) on individuals who receive Supplemental Security Income (SSI)
payments. The purpose of CDRs is to assess whether individuals remain medically
eligible for SSI payments. CDRs are conducted at various intervals. Specifically:

      •   Individuals with a significant potential for medical improvement are selected for
          review within the first 6 to 18 months of eligibility;
      •   Individuals with a lower probability of medical improvement are reviewed every
          3 years; and
      •   Individuals with no expectation of medical improvement are scheduled for review
          every 7 years. 1

In addition, SSA is required to perform:

      •   disability redeterminations for 18-year-old recipients using adult eligibility criteria
          for initial claims;
      •   CDRs not later than 12 months after birth for children where low birth weight is a
          contributing factor material to the determination of disability; and
      •   CDRs at least once every 3 years for children under age 18 with impairment(s)
          that are likely to improve (or, at the option of the Commissioner, recipients whose
          impairments are unlikely to improve). 2

SSA is required to report to Congress the number of CDRs performed each year to
meet legislative or regulatory requirements:

      •   Title II of the Social Security Act requires SSA to report to Congress annually on
          the results of periodic CDRs under the Social Security Disability Insurance
          program. 3
      •   Title XVI of the Social Security Act requires SSA to report on the number of SSI
          CDRs and redeterminations in an annual report on the SSI program. 4



1
    20 C.F.R. § 416.990(d).
2
    Section 1614(a)(3)(H) of The Social Security Act, as amended (42 U.S.C. § 1382c(a)(3)(H)).
3
    The Social Security Act § 221(i), 42 U.S.C. § 421(i).
4
    The Social Security Act § 1637(a)(6), 42 U.S.C. § 1383f(a)(6).



                                                      B-1
Processing CDRs

SSA conducts CDRs using one of two methods: full medical reviews or questionnaires
(mailers).

Full Medical Reviews

Full medical reviews are primarily conducted by Disability Determination Services (DDS)
located in each State and the District of Columbia in accordance with Federal
regulations. 5 SSA’s field offices send CDR cases to the DDSs throughout the year for
processing. SSA initiates these CDRs for various reasons, including:

      •   routine scheduling of a medical review (this is sent out as a “direct release”);
      •   responses to a CDR mailer indicating that the individual’s medical condition may
          have improved;
      •   receipt of information that an individual’s condition has improved and/or the
          individual has been working (this is sent out as a “work CDR”); or
      •   testing the reliability of SSA’s systems and/or verifying assumptions through a full
          medical review.

SSA’s folder processing centers send the case folder (which contains background and
medical information on the individual) selected for a full medical CDR to the appropriate
SSA field office for development. Field office personnel review the information in the
case folder, interview the individual, and update pertinent facts in the folder prior to
sending the case to the DDS for a full medical review. DDS medical examiners, using
information in the case folder, determine if additional tests are necessary. Based on
this information, a decision is made as to whether the individual is still disabled.

CDR Mailer Questionnaires

CDR mailers are questionnaires sent to disabled individuals asking whether the
recipient has been employed, attended school or training, been told by a doctor whether
he or she can work, has gone to a doctor or clinic for treatment, or has been
hospitalized or had surgery. 6 If the answers to the questions indicate the individual’s
condition may have improved, the case is referred to a DDS office for a full medical
review to determine whether the individual is still disabled. 7

5
    20 C.F.R. § 416.1001 et seq.
6
  Normally, only individuals determined to have a low likelihood of medical improvement are sent mailers.
Cases that are profiled as having a mid-range to high likelihood of medical improvement are scheduled
for full medical CDRs rather than mailer questionnaires.
7
  CDR mailers were not included in our review because the review focused on medical CDRs in which the
initial DDS decision was a medical cessation. If SSA sends out a mailer and, based on the information
supplied in the response, they feel it is possible the recipient’s disability has ceased, then they will open
the case for a full medical review.



                                                    B-2
                                                                        Appendix C

Scope and Methodology
To accomplish our objective we:

   •   Reviewed -
         • Program Operations Manual System DI 12027, DI 28080, GN 02201,
             SI 02201, SI 02260, SI 04005, SI 04030, SM 00614, and SM 01601
         • Hearings, Appeals, and Litigation Law Manual I-2-1-55
         • 20 Code of Federal Regulations Sections 416.101, 416.110, 416.990,
             416.996, 416.1001, and 416.1417
         • Public Law 98-460 § 7
         • Sections 221, 1601, 1614, 1631, and 1637 of The Social Security Act
         • 42 United States Code Sections 421, 1381, 1382, and 1383

   •   Reviewed prior Office of the Inspector General audit reports related to
       overpayments and continuing disability reviews (CDR).

   •   Interviewed Social Security Administration (SSA) staff from the Office of Disability
       and the Office of Disability Adjudication and Review (ODAR) to obtain an
       understanding of (1) the CDR process, (2) appeals process for disability
       cessations, and (3) the treatment of overpayments.

   •   Obtained a file from the Office of Disability and Income Security Programs of all
       25,786 individuals who received an Administrative Law Judge (ALJ) decision for
       medical cessation between October 1, 2002, and September 30, 2004. From
       this file, we identified a population of 23,198 individuals who continued receiving
       Supplemental Security Income payments while appealing SSA’s CDR decision
       that they were no longer disabled.

   •   Separated the population of 23,198 into two groups:
         • 6,261 recipients (27 percent) who received a continuation at the ALJ level
             of appeal and
         • 16,937 recipients (73 percent) whose cessation was affirmed at the ALJ
             level of appeal.

   •   Selected a random sample of 250 cases from each of the two groups for a total
       sample size of 500 cases.




                                            C-1
    •   Analyzed recipient information available on SSA’s electronic systems—including
        the Supplemental Security Record (SSR) 1 and the ODAR query—and projected
        our results to the population.

We conducted our audit in Kansas City, Missouri between February and
December 2005. We determined that the data used for this audit was sufficiently
reliable to meet our audit objective. The entity audited was SSA field offices and
program service centers under the Office of Central Operations and ODAR. We
conducted our audit in accordance with generally accepted government auditing
standards.




1
 We relied on the overpayment amount that was posted by SSA on the SSR; therefore, we did not
determine if the posted overpayments were accurate.




                                                C-2
                                                                                            Appendix D

Population and Sample Results
Of the 25,786 recipients who received an Administrative Law Judge (ALJ) decision for
medical cessation between October 1, 2002 and September 30, 2004, we identified a
population of 23,198 recipients who continued to receive Supplemental Security Income
payments during the appeals process. An ALJ affirmed the cessation decision for
16,937 recipients and continued benefits for 6,261 recipients.

Our analysis of 250 cases where benefits were ceased identified 234 recipients who
received payments during the appeals process totaling over $2.1 million that were
subsequently considered overpayments. In addition, we conducted analysis on the
overpayments to determine what the Social Security Administration’s (SSA) recovery
activities were for each individual. Our analysis of 250 cases allowed to continue to
receive benefits identified 242 recipients who received payments during the appeals
process totaling over $2.1 million. The following tables reflect the sample results and
projections based on our audit. 1

                                         Table 1: Population and Sample Size
                                                  Continuance         Cessation            Total
               Population size                               6,261              16,937         23,198
               Percent of total population                    27%                 73%              100%
               Sample size                                      250                250              500
                                                   Number of Cases
               Cases Identified in Sample                       242                234              476
               Point Estimate                                6,061              15,853         21,914
               Lower Limit – Quantity                        5,908              15,322
               Upper Limit – Quantity                        6,159              16,247
                                               Associated Dollar Amount
               Payments Identified in Sample           $2,130,675 2       $2,156,4802,3     $4,287,155
               Point Estimate                          $53,360,614        $146,097,190    $199,457,804
               Projection Lower Limit                  $49,673,526        $136,617,822
               Projection Upper Limit                  $57,047,702        $155,576,558



1
    All projections in the following tables were calculated at the 90-percent confidence level.
2
 A portion of this amount includes State supplements, which are monies paid to the recipient by the
Federal Government on behalf of the State.
3
 Approximately $62,000 (3 percent) of this amount was payments made to recipients who received an
ALJ decision in our timeframe, but has since re-appealed the decision. Since these cases are still in
appeal, the overpayment will be reversed if the final decision is favorable.



                                                       D-1
                                        Table 2: Overpayment Recovery Activities

                                        Collection                     Collection
                       Collected        In Process       Waived        Suspended        Uncollectible   Undetermined
    Identified in
                          $76,226         $733,390        $448,661        $360,966          $141,811        $395,426 4
    Sample
    Percent of
                             3.5%              34%          20.8%             16.7%             6.6%           18.3%
    Sample 5
    Point Estimate     $5,164,186    $49,685,691       $30,395,907     $24,454,694        $9,607,401      $26,789,310
    Projection
                       $3,325,007    $40,420,941       $23,164,063     $18,133,447        $5,192,779      $19,793,023
    Lower Limit
    Projection
                       $7,003,365    $58,950,442       $37,627,751     $30,775,941       $14,022,024      $33,785,596
    Upper Limit


                        Table 3: Breakdown of Overpayments Incurred By Level of Appeal 6
                                                                          Between Levels
                                          Reconsideration       ALJ           of Appeal
                     Identified in Sample         $647,472   $1,303,186           $204,722
                     Percent of Sample                      30%           60.4%                  9.5%
                     Point Estimate                  $43,864,941     $88,288,261          $13,869,533
                     Projection Lower
                                                     $40,065,597     $81,039,956          $11,891,401
                     Limit
                     Projection Upper
                                                     $47,664,285     $95,536,565          $15,847,666
                     Limit


                                          Table 4: Savings at Reconsideration
                                                     Reconsideration Appeal not Complete in:
                                                           30 Days                    60 Days
                        Identified in Sample                    $621,433                  $553,983
                        Percent of Sample 7                            96%                   85.6%
                        Point Estimate                          $42,100,858            $37,531,256
                        Projection Lower Limit                  $38,337,972            $33,836,936
                        Projection Upper Limit                  $45,863,745            $41,225,576




4
 Approximately $11,000 (3 percent) of this amount are payments that SSA has not recognized as an
overpayment due to appeal proceedings and input errors. Until there is action taken to assess the
overpayment, SSA will not attempt to collect the funds.
5
    This is a percentage of the total overpayments for cessation decisions ($2,156,480).
6
  Although payments should not continue through the Appeals Council level of appeal; we found two
cases in our sample that received a payment. Since the number of cases and the amount of the
payments were immaterial for these cases, we did not include these payments in our analysis of cases by
level of appeal.
7
 This is the percentage of the total amount of overpayments incurred at the reconsideration level of
appeal ($647,472).



                                                          D-2
                                           Table 5: Savings at ALJ Level
                                                       ALJ Appeal not Complete in:
                                                 60 Days        90 Days       120 Days
                    Identified in Sample         $1,106,729     $1,008,464       $910,249
                    Percent of Sample 8               84.9%          77.4%           69.8%
                    Point Estimate              $74,978,670    $68,321,399     $61,667,546
                    Projection Lower Limit      $68,276,628    $61,845,670     $55,437,378
                    Projection Upper Limit      $81,680,713    $74,797,129     $67,897,714



                       Table 6: Overpayments Incurred Between Levels of Appeal
                                  Before                                 Before
                              Reconsideration         Before ALJ     Appeals Council       Total
     Identified in Sample             $20,163             $178,422            $6,138      $204,723
     Percent5                             .9%                8.3%                .3%          9.5%
     Point Estimate                $1,365,979          $12,087,745          $415,809    $13,869,533
     Projection Lower Limit          $782,482          $10,247,073          $179,186
     Projection Upper Limit          $1,949,475        $13,928,417           $652,433




8
 This is the percentage of the total amount of overpayments incurred during the ALJ appeal
($1,303,186).




                                                      D-3
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      May 4, 2006                                                          Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Impact of Statutory Benefit Continuation
           on Supplemental Security Income Payments Made During the Appeals Process"
           (A-07-05-15095)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “IMPACT OF STATUTORY BENEFIT CONTINUATION ON
SUPPLEMENTAL SECURITY INCOME PAYMENTS MADE DURING THE APPEALS
PROCESS” (A-07-05-15095)

Thank you for the opportunity to review and provide comments on this draft report. Overall, the
Agency supports the purpose of this audit but has several concerns regarding the results.

We disagree with the conclusion that appeals for which benefits are being paid should be
processed completely separately from appeals where benefits are not being paid. Two of our top
goals are to: (1) deliver high-quality, citizen-centered service in a timely and efficient manner;
and (2) ensure superior stewardship of Social Security programs and resources. Financial
efficiency is not the single goal of the Social Security programs, especially when it comes to
needy disabled individuals. We have a duty to serve all citizens in a timely and efficient manner.
We also have a duty to follow the requirements of law as set forth in Congressional statutes,
Agency regulations and in Federal court decisions, which may dictate priorities that are at odds
with financial efficiency considerations alone.

Furthermore, it is unrealistic to suggest that reconsiderations of medical cessations can be
completed within 30 days on average or that hearing decisions by an Administrative Law Judge
(ALJ) on such cases can be completed within 60 days on average. In this regard, it appears from
footnote 18 (page 7) that the report has overlooked the fact that a recipient who requests
reconsideration of a medical cessation must be offered the opportunity for a face-to-face
evidentiary hearing with a disability hearing officer employed by an adjudicatory unit other than
the one that made the decision being appealed (20 C.F.R. §416.1414ff). Scheduling, sending the
required notice at least 20 days before the hearing, and holding an evidentiary hearing only adds
time to a process where initial disability decisions currently average over 90 days to process. It
is incorrect to say that reconsiderations and hearings merely consist of a reexamination of
existing evidence. We do not believe that processing disability cessation reconsiderations in
approximately twice that time is “untimely.” As for ALJ hearings, this report offers no basis for
the assumption that such hearing decisions can be successfully completed within 60 days on
average.

Recommendation 1

Enhance the business process to allow more timely decisions on medical cessation appeals.

Comment

We agree. Enhancing the business process may allow for improved stewardship and more timely
decisions regarding Supplemental Security Income (SSI) cessation cases and benefit
continuation during the appeal period. We intend to decrease processing time in all our
disability appeals through the implementation of eDib and the new disability regulations.




                                               E-2
Processing times reflected in the report indicate that we are following the regulations and ALJs
are following HALLEX guidelines that include assignment of continuing benefit disability
cessation cases as 7th of 11 categories of priority cases they may be processing. There are
significant reasons for the categorization of these priorities and we cannot justify moving this
category of cases ahead of the others. Although we recognize our responsibility to stewardship,
we must at times balance that against service obligations. Therefore, at this time we are not in a
position to support segregating cases that are receiving benefit continuation and processing those
cases first.

Recommendation 2

Remind SSA components of the proper procedures for terminating SSI benefits following
medical cessation decisions.

Comment

We agree. We will remind the appropriate components of the proper procedures for terminating
SSI benefits following medical cessation decisions. Also, it should be noted that SSA
implemented systems enhancements in January and April 2004 which automatically handle
payment termination in Statutory Benefit Continuation cases with Office of Hearings and
Appeals (OHA) or Disability Determination Service (DDS) involvement, respectively. When
the termination decision is received from the DDS or ALJ, the SSI system automatically
terminates the benefit continuation according to established guidelines. Manual intervention is
not required. In addition, systems controls are in place to ensure that these cases can be tracked.




                                                E-3
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Shannon Agee, Audit Manager (816) 936-5590


Acknowledgments

In addition to those named above:

   Khristan Kaufman, Auditor

   Kenneth Bennett, IT Specialist

   N. Brennan Kraje, Statistician

   Cheryl Robinson, Writer-Editor



For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-05-15095.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
